 Spotlight
 Department of Homeland Security

Ofﬁce of Inspector General                                                                                      January 2013 OIG-13-21



(U) Further Development and Reinforcement of
Department Policies Can Strengthen DHS'
Intelligence Systems Security Program
Unclassified Summary
We reviewed the Department of Homeland Security’s (DHS) enterprise-wide security program for Top Secret/Sensitive
Compartmented Information intelligence systems. Pursuant to the Federal Information Security Management Act, we reviewed the
Department’s security management, implementation, and evaluation of its intelligence activities, including its policies, procedures,
and system security controls for enterprise-wide intelligence systems. In doing so, we assessed the Department’s continuous
monitoring, configuration management, identity and access management, incident response and reporting, risk management, security
training, plans of actions and milestones, contingency planning, security capital planning, and systems inventory.

Since our fiscal year 2011 evaluation, the Office of Intelligence and Analysis (I&A) has improved its oversight of Department-wide
systems and established programs to monitor ongoing security practices. I&A has developed and implemented a training program to
educate DHS’ growing number of personnel assigned security duties on intelligence systems. In addition, progress has been made in
collaboration with other DHS components in centralizing the planning and prioritization of security weakness remediation,
streamlining system configuration management, and maintaining a current systems inventory. However, we identified deficiencies at
the United States Coast Guard (USCG) in system authorizations and specialized training and incident response, contingency
planning, and security capital planning at the United States Secret Service (USSS). Also, we identified deficiencies in the
Department-wide management of supply chain threats and security capital planning. We made two recommendations to I&A, two
recommendations to USCG, and three recommendations to USSS. DHS and its components concurred with all our
recommendations. Fieldwork was conducted between April and July 2012. (OIG-13-21, January 2013, ITA)




For Further Information:
Contact our Office of Public Affairs at (202)254-4100, or email us at DHS-OIG.OfficePublicAffairs@oig.dhs.gov
